   July 23, 2004




Acquisition
Contracting for and Performance of
the C-130J Aircraft
(D-2004-102)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

AFOTEC                Air Force Operational Test and Evaluation Command
QOT&E                 Qualification Operational Test and Evaluation
          Office of the Inspector General of the Department of Defense
Report No. D-2004-102                                                        July 23, 2004
   Project No. (D2003AB-0084)

          Contracting for and Performance of the C-130J Aircraft

                                Executive Summary

Who Should Read This Report and Why? Civilian and military managers involved in
managing acquisition programs should read this report to obtain information about
commercial item acquisition, requirements evolution, and test and evaluation planning
because the report discusses an unjustified decision to use a commercial item acquisition
strategy and other problems that occurred because of poor management.

Background. We performed this audit in response to allegations to the Defense Hotline
concerning the Defense Contract Management Agency’s oversight of Lockheed Martin’s
performance on the C-130, F-22, and C-5 aircraft. This is the third in a series of three
reports concerning the allegations. This report addresses the allegation that the C-130J
aircraft does not meet contract specifications and therefore cannot perform its operational
mission.

The primary mission of the C-130J remains unchanged from the existing C-130 fleet.
The C-130J performs the intratheater portion of the airlift mission and is a platform for
dropping troops and equipment into hostile areas. The C-130J aircraft is a
medium-range, tactical aircraft and is the newest upgrade to the C-130 fleet.
Enhancements include a modern glass cockpit with digital avionics, an improved
electrical system, new engines and propellers, and an enhanced cargo handling and
delivery system. In addition, the C-130J aircraft requires only a three-person flight crew
instead of the five-person flight crew that the previous H-version required. Lockheed
Martin, the manufacturer, discontinued production of the H version in 1997 and promoted
the C-130J as a commercial aircraft.

Results. We substantiated the allegation that the C-130J aircraft does not meet contract
specifications and therefore cannot perform its operational mission. The Air Force
conditionally accepted 50 C-130J aircraft at a cost of $2.6 billion even though none of the
aircraft met commercial contract specifications or operational requirements. The Air
Force also paid Lockheed Martin more than 99 percent of the C-130J aircraft’s contracted
price for the delivered aircraft. As a result, the Government fielded C-130J aircraft that
cannot perform their intended mission, which forces the users to incur additional
operations and maintenance costs to operate and maintain older C-130 mission-capable
aircraft because the C-130J aircraft can be used only for training. The Assistant
Secretary of the Air Force for Acquisition should stop the System Program Office from
contracting for additional block upgrades until a contract-compliant aircraft is designed,
developed, and delivered; use Federal Acquisition Regulation Part 15 for future
modifications that add to the scope of the statement of work to the C-130J multiyear
contract (F33657-03-C-2014); increase contract withhold amounts for acceptance of
noncompliant aircraft; and develop a schedule for completing outstanding retrofits to
accepted and fielded aircraft. (See the Finding section of the report for the detailed
recommendations.)
Management Comments and Audit Response. The Assistant Secretary of the Air
Force for Acquisition nonconcurred with the finding and recommendations. The
Assistant Secretary stated that the commercial acquisition strategy of the C-130J was
legitimate, the Air Force properly managed the program, and DoD provided effective
oversight. The Assistant Secretary stated that Lockheed Martin is delivering contract-
compliant C-130J aircraft, and that upgrades are necessary to meet DoD requirements.
He also stated that the use of Federal Acquisition Regulation Part 12 was appropriate. In
addition, withholds were consistent with the contract, and the Air Force did not have
problems motivating Lockheed Martin to correct within-scope deficiencies. The
Assistant Secretary also stated that all outstanding retrofits had been scheduled or
completed.

The Assistant Secretary’s comments were nonresponsive to the report and its
recommendations. We do not agree with the Assistant Secretary’s comments and stand
by our finding and intent of the recommendations. Because the Air Force had already
accepted noncompliant aircraft, visibility on modification and development costs are
lacking, the multiyear contract has already been awarded, and it would require a bilateral
agreement to change the terms and conditions of the contract, we revised the
recommendation from changing the existing multiyear contract terms and conditions to
using Federal Acquisition Regulation Part 15 for future modifications that add to the
scope of the work of the multiyear contract. The commercial acquisition strategy was
unjustified, the Air Force did not properly manage the program, and the Office of the
Under Secretary of Defense for Acquisition, Technology, and Logistics did not provide
effective oversight. The Air Force bought the C-130J as a commercial item needing
minor modification, but in the 8 years since the Air Force began contracting for the
C-130J, Lockheed Martin has been unable to design, develop, or produce a C-130J
aircraft that meets contract specifications. In addition, the Air Force did not determine
whether the commercial version of the C-130J met the operational requirements before
procuring the aircraft. The Air Force C-130J withholds do not correlate with C-130J
aircraft outstanding contract deficiencies, nor do current levels of withholds ensure that
corrections are performed in a timely manner. All contract deficiencies should be
resolved and retrofits should be performed before the Air Force funds additional
upgrades. We request that the Assistant Secretary of the Air Force for Acquisition
provide comments on the final report by August 23, 2004.

Although not required, the Director, Operational Test and Evaluation in the Office of the
Secretary of Defense provided comments on the report. See the Management Comments
section of the report for the complete text of the comments.

See the Finding section of the report for a discussion of the Assistant Secretary of the Air
Force for Acquisition’s comments and the Management Comments section of the report
for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                                i

Background                                                                       1

Objectives                                                                       2

Finding
     Contracting for and Management of the C-130J Program                        3

Appendixes
     A. Scope and Methodology                                                   16
         Related Coverage
     B. Mission Capability Limitations in the Air Force Reserve, Air National
          Guard, Marine Corps, and Coast Guard                                  18
     C. Audit Response to Comments on the Report                                20
     D. Report Distribution                                                     22

Management Comments
     Department of the Air Force                                                25
     Director, Operational Test and Evaluation                                  34
Background
        We performed this audit in response to allegations to the Defense Hotline
        concerning the Defense Contract Management Agency’s oversight of Lockheed
        Martin’s performance on the C-130, F-22, and C-5 aircraft. This is the third and
        final report concerning the allegations. Specifically, this report addresses the
        allegation which states that the C-130J Aircraft does not meet contract
        specifications and therefore cannot perform its operational mission.

        Congressional Authorization and Appropriation. Congress authorized and
        appropriated about $4 billion for the acquisition of the C-130J aircraft for
        FYs 1996 through 2004. About $2.3 billion of the $4 billion were congressional
        increases to the Services’ budget requests. In 2003, the DoD submitted a request
        for approval of a multiyear contract for the C-130J aircraft. The 2003
        Authorization Conference Report 107-772 authorized multiyear procurement
        authority for the C-130J aircraft program.

        C-130J Aircraft. The primary mission of the C-130J remains unchanged from
        the existing C-130 fleet. The C-130J performs the intratheater portion of the
        airlift mission and is a platform for dropping troops and equipment into hostile
        areas. The Air Mobility Command, Theater Commands, Air National Guard, Air
        Force Reserve, Air Force Special Operations Command, Marine Corps, and Coast
        Guard use the C-130 aircraft fleet in peace and war missions. The C-130J aircraft
        is a medium range, tactical aircraft and is the newest upgrade to the C-130 fleet.
        Specialized versions of the aircraft include the C-130J Stretch where the cargo
        floor length of the aircraft is increased from 40 feet to 55 feet, the WC-130J that
        performs weather reconnaissance missions, the EC-130J that performs electronic
        warfare missions, the KC-130J that performs air-refueling missions, and the
        HC-130J that performs search and rescue missions. In this report, all aircraft will
        be referred to as the C-130J unless the discussion relates to a specific aircraft
        version.

        Enhancements for the C-130J aircraft include a modern glass cockpit with digital
        avionics, an improved electrical system, new engines and propellers, and an
        enhanced cargo handling and delivery system. In addition, the C-130J aircraft
        requires only a three-person flight crew instead of a five-person flight crew that
        the previous C-130H version required. Lockheed Martin, the manufacturer,
        discontinued production of the military C-130H version in 1997 and promoted the
        C-130J as a commercial aircraft to replace aging C130 aircraft.

        C-130J Program Information. The Under Secretary of Defense for Acquisition,
        Technology, and Logistics designated the C-130J Program as an Acquisition
        Category IC* program and assigned the Air Force acquisition executive as the
        milestone decision authority. The Air Force Contracting Officer determined that
        the C-130J aircraft was a commercial item that would meet the Government’s
        needs with minor modification.

*
 Acquisition Category IC programs are Major Defense Acquisition Programs with expenditures for
research, development, test, and evaluation of more than $355 million or procurement of more than
$2.135 billion. The milestone decision authority is the Component head, or Service acquisition executive.


                                                    1
    Lockheed Martin developed and produced the C-130J aircraft using a commercial
    aircraft model performance specification. Lockheed Martin initiated the C-130J
    upgrade and managed the program development, developmental testing, and
    production process. Because the Air Force contracting officer determined that the
    C-130J aircraft was a commercial item, the Air Force did not apply the normal
    milestone decision process to this program. The only DoD acquisition decision
    was whether to buy the C-130J aircraft, which was based on force structure
    requirements and system affordability.

    Based on the congressional authority to purchase C-130J aircraft, the Air Force
    decided to buy the aircraft in the quantities authorized. Because of the contracting
    officer’s decision to designate the aircraft as a commercial item, Federal
    Acquisition Regulation Part 15, Contracting by Negotiation, which allowed
    access to contractor cost and pricing data as well as other Government oversight,
    did not have to be applied to the C-130J procurement. In total, the Air Force
    contracted for 117 C-130J aircraft for the Air Force, Marine Corps, and Coast
    Guard at a cost of $7.45 billion. As of December 31, 2003, the Air Force had
    accepted 50 C-130J aircraft at a cost of $2.6 billion.


Objectives
    The overall audit objective was to determine whether the allegation that the
    C-130J aircraft does not meet contract specifications and therefore cannot perform
    its operational mission has merit. We determined that the allegation had merit,
    which resulted in our report. See Appendix A for a complete discussion of the
    audit scope and methodology.




                                         2
            Contracting for and Management of the
            C-130J Program
            The Air Force conditionally accepted 50 C-130J aircraft at a cost of
            $2.6 billion even though none of the aircraft met commercial contract
            specifications or operational requirements. The Air Force also paid
            Lockheed Martin more than 99 percent of the C-130J aircraft’s contracted
            price for the delivered aircraft, leaving the contractor little financial
            incentive to correct deficiencies. These conditions occurred because:

                •   The Air Force contracting officer did not properly justify the use of
                    a commercial item acquisition strategy;

                •   The Air Force did not adequately manage the program operation;

                •   The contracts did not provide sufficient financial incentives for
                    delivering compliant aircraft; and

                •   The Office of the Secretary of Defense did not provide effective
                    oversight of the C-130J Program to correct significant program
                    deficiencies.

            As a result, the Government fielded C-130J aircraft that cannot perform
            their intended mission, and the users incurred additional operations and
            maintenance costs to operate and maintain older C-130 aircraft as well as
            the C-130J aircraft.


Criteria
     Federal Acquisition Regulation. Federal Acquisition Regulation Subpart 2.1,
     “Definitions,” September 2001, states that a commercial item is customarily used
     for nongovernmental purposes, and has been sold or offered for sale, lease, or
     license to the public. A commercial item can also require minor modifications not
     customarily available in the commercial marketplace to meet Federal Government
     requirements. Minor modifications do not significantly alter the nongovernmental
     function or essential physical characteristics of an item or component or change
     the purpose of a process. The Government contracting officer determines whether
     an item that is proposed as commercial is actually commercial or can be modified
     in some minor way to meet the Government’s needs.

     DoD Guidance. DoD Instruction 5000.2, “Operation of the Defense Acquisition
     System,” May 12, 2003, requires that test and evaluation determine the
     effectiveness and suitability of a system under realistic operational conditions,
     including combat, determine whether the thresholds in the approved operational
     requirement document and the critical operational issues have been satisfied, and
     assess impacts on combat operations.



                                          3
Conditional Acceptance of C-130J Aircraft
     From 1999 to 2003, the Air Force conditionally accepted 50 C-130J aircraft at a
     cost of $2.6 billion even though none of the aircraft met commercial contract
     specifications or operational requirements. In addition, the Air Force paid more
     than 99 percent of the contract price for the 50 conditionally accepted aircraft;
     withholding less than 1 percent as incentive to fix noncompliant issues. Table 1
     shows the number of aircraft by Component and year.

                       Table 1. Aircraft Delivery Schedule
                            (As of December 31, 2003)
                          Air       Air
                         Force    National Marine     Coast
               Year     Reserve    Guard     Corps    Guard       Total
               1999        7          7         0       0          14
               2000        1          4         1       0           6
               2001        2          4         7       0          13
               2002        4          2         1       1           8
               2003        0          1         3       5           9
                 Total    14         18        12       6          50

     The C-130J aircraft delivered to the Government did not meet the commercial
     model specification. Lockheed Martin delivered all 50 aircraft with a Letter of
     Temporary Exception. The Letter of Temporary Exception documented the
     differences between the actual configuration of the C-130J aircraft delivered and
     the commercial specification incorporated in the contract. In addition, Air Force
     testing disclosed many deficiencies in aircraft operational performance and
     suitability.

     Air Force and Navy testers and the C-130J users generated deficiency reports that
     addressed commercial model specifications and operational deficiencies. The
     deficiencies fell into two categories. Category 1 deficiencies could cause death,
     severe injury or illness, major loss of equipment or systems, or directly restrict
     combat or operational readiness, if uncorrected. Category 2 deficiencies were all
     other deficiencies that did not meet the criteria of Category 1. Table 2 shows the
     number of open and closed deficiency reports generated on the C-130J Program
     as of December 31, 2003.

                       Table 2. C-130J Deficiency Reports
                           (As of December 31, 2003)
                            Category 1 Category 2     Total
                    Open         33         151        184
                    Closed      135         532        667
                     Total      168         683        851

     Lockheed Martin and the Government must retrofit previously delivered aircraft
     as the deficiency reports are closed and corrections implemented.




                                          4
Air Force Acquisition Strategy
     The Air Force used an unjustified commercial item acquisition strategy to acquire
     the C-130J aircraft. The Government contracting officer’s justification stated that
     the C-130J aircraft was a commercial item because the C-130J aircraft had
     evolved from a series of Lockheed Martin-developed and produced commercial
     aircraft configurations certified by the Federal Aviation Administration. The
     contracting officer stated that the C-130J included Lockheed Martin-developed
     advances in technology and performance. The contracting officer’s justification
     also stated that the aircraft would be available in the commercial marketplace by
     the time of delivery under a Government contract. In addition, the Government
     contracting officer included in his justification a statement that only minor
     modifications to the commercial aircraft would be required to fulfill Government
     needs. Based on the contracting officer’s commercial item determination, the Air
     Force adopted a commercial item acquisition strategy for the C-130J aircraft.

     The contracting officer’s justification that the aircraft was commercial and the
     decision to pursue a commercial acquisition strategy were flawed in several ways.
     First, the contracting officer stated that 95 percent of the features between the
     military and civilian versions of the aircraft were the same. However, Air Force
     contracting personnel could not provide the evidence to support that statement.
     The contracting officer also stated that the aircraft evolved from a series of
     Lockheed Martin-produced commercial aircraft. However, the most current prior
     version, the C-130H was only used for government purposes. The contracting
     officer also could not produce support for the determination that modification to
     include customer requirements would be minor. The Air Force was also unable to
     show that the commercial specification was compared to operational requirements
     and would meet Government needs. This flawed justification and decision led to
     a number of problems.

     As a result of the commercial specification not meeting user needs, the Air Force
     and Marine Corps decided to revise their requirements documents to reduce the
     initial capabilities required and to satisfy operational requirement deficiencies
     through block upgrade programs at the Government expense. Essentially, what
     began as a contract to obtain a commercial aircraft that would meet the
     Government’s needs with minor modification evolved into efforts by the Air
     Force to manage the C-130J as a spiral development at additional expense to the
     Government.

     In addition, by acquiring the C-130J as a commercial item, using Federal
     Acquisition Regulation, Part 12, “Acquisition of Commercial Items,” the
     Government did not apply the normal acquisition milestone decision process and
     limited program oversight. Also, because the Air Force acquired the C-130J
     aircraft using Federal Acquisition Regulation, Part 12, the Air Force contracting
     official could not require Lockheed Martin to provide certified cost or pricing
     data. Therefore, without knowledge of Lockheed Martin’s prices, costs, or
     profits, the Air Force contracting officer was limited in his ability to protect the
     Government against overpricing. In 1995, the price for the basic C-130J aircraft
     was $33.9 million, but by 1998, the price had risen to $49.7 million. The
     FY 2004 contract price for the C-130J Stretch aircraft is $66.5 million.



                                           5
Air Force Management
    The Air Force did not adequately manage program operations or financing for the
    C-130J. Since 1996, the Air Force issued three, consecutive, firm-fixed-price
    contracts for the C-130J aircraft even though Lockheed Martin continued to show
    little progress in delivering contract-compliant aircraft. In addition, the Air Force
    did not withhold sufficient funds from Lockheed Martin to adequately motivate
    the contractor to build a compliant aircraft and correct deficiencies in delivered
    aircraft.

    Operation. In October 1995, the Government contracted for the first two C-130J
    aircraft in a modification to the C-130H aircraft contract. Production for the
    initial C-130J aircraft began in 1996. Lockheed Martin originally planned to
    deliver the initial aircraft in July 1997 but did not deliver the aircraft until
    February 1999. In November 1996, the Government signed a 5-year option
    contract that resulted in the purchase of 35 C-130J aircraft.

    In January 1999, the Air Force became aware that Lockheed Martin could not
    meet the C-130J commercial model specification and agreed to a contractor-
    initiated, three-phase, block upgrade program, consisting of block upgrades 5.1,
    5.2, and 5.3. However, the Air Force continued to contract for additional aircraft
    and exercised options for more aircraft before the first aircraft was delivered.

    Because Lockheed Martin was experiencing design, test, and qualification
    problems, the first two C-130J aircraft were not delivered until February 1999,
    and even those aircraft were conditionally accepted. In December 2000, the Air
    Force signed another 5-year option contract for 20 C-130J aircraft, even though
    Lockheed Martin still had not designed, developed, or delivered a C-130J aircraft
    that met the commercial model specification. Testing showed that even with the
    block 5.1, 5.2, and 5.3 upgrades, the aircraft was still not compliant with the
    commercial model specification or operational requirements.

    In October 2002, 6 years after initial production, the Air Force and Lockheed
    Martin reached an agreement that the design would be considered compliant with
    the successful completion of an agreed-upon action plan. Corrections in the
    agreement are to be completed in block upgrade 5.4, which is scheduled for
    installation in 2005.

    However, the Air Force commingled contract specification work with out-of-
    scope work in block upgrade 5.4. As a result, customers who cannot afford the
    cost of the out-of-scope work will not receive the upgrade needed to have
    compliant aircraft.

    In March 2003, the Air Force made another poor decision to obtain approval from
    Congress to award a multiyear contract to purchase 60 additional C-130J aircraft.
    Section 2306b, title 10, United States Code requires a stable design for a
    multiyear contract. The design of the C-130J is not stable and the C-130J aircraft
    has not passed operational testing. Table 3 shows the number of C-130J aircraft
    purchased and delivered by contract, as of December 31, 2003.



                                          6
    Table 3. Number of C-130J Aircraft Purchased and Delivered
                        (As of December 31, 2003)

         Contract Number                  Purchased          Delivered
         F33657-90C-0071                       2                  2
         F33657-95C-2055                      35                 35
         F33657-00C-0018                      20                 13
         F33657-03C-2014                      60                  0
          Total                              117                 50

In addition to the problems of upgrading the aircraft to obtain compliance, the
50 already accepted aircraft needed to be retrofitted to incorporate corrections that
were required for the aircraft to adhere to the most current design configuration.
Lockheed Martin and the Government have already performed numerous hours of
retrofit work on fielded C-130J aircraft to make the required changes. Table 4
shows the estimated retrofit hours that Lockheed Martin and the Government still
needed to perform on the 32 C-130J aircraft fielded to Air Force units, as of
August 2003.

       Table 4. Estimated Hours to Retrofit Air Force Aircraft
                           (As of August 2003)

                   No. of      Estimated          Hours     Hours
Component          Aircraft   Hours Needed      Scheduled Unscheduled
Air Force            14          3,846            2,399      1,447
 Reserve
Air National         18           5,683            2,351         3,332
 Guard
 Total               32           9,529            4,750         4,779

The 4,750 hours scheduled for retrofitting began in August 2003 and will be
completed in August 2004. Lockheed Martin and the Government have not
negotiated an implementation plan for the 4,779 unscheduled retrofit hours. In
addition, until there is a stabilized design for the C-130J aircraft and all
deficiencies are corrected, more retrofit hours will be generated and additional
corrections will be needed. The Air Force was unable to provide an estimate of
retrofit hours needed for the 12 Marine Corps or the 6 Coast Guard C-130J
aircraft.

The above condition could have been alleviated if the Air Force had provided
adequate financial incentives by withholding more funds.

Financial Incentive. The Air Force decisions for providing financing to
Lockheed Martin were not sound, because Lockheed Martin had no incentive to
produce a compliant aircraft or make timely corrections to fielded aircraft. The
contracts were structured to provide payments based on completed events. A
percentage was then paid for each event. The Air Force also increased the
amount paid for earlier interim events with each new contract. For example, the
original contract payment at aircraft assembly completion was 65 percent;
payment increased to 75 percent on the second contract and to 85 percent on the
current contract. The Air Force has paid almost the entire price of the aircraft


                                      7
     before aircraft acceptance inspection and delivery. The Air Force should have
     increased the amounts withheld to motivate Lockheed Martin to deliver aircraft
     that meet contractual requirements.

     The Air Force could have and should have withheld sufficient money for the
     noncompliant items to motivate the contractor to timely fix deficiencies, but the
     Air Force managed the financing poorly and paid the contractor almost the full
     price of the aircraft on acceptance. Specifically, as of December 31, 2003, the Air
     Force paid Lockheed Martin approximately $2.6 billion for the 50 conditionally
     accepted aircraft while withholding only $22.6 million (see Table 5).

                Table 5. Program Office Payments to Lockheed Martin
                              (As of December 31, 2003)

                    No. of
       Component    Aircraft Amount Paid            Amount Withheld      Contract Price
       Air Force      14      $618,998,713             $4,401,287        $623,400,000
        Reserve
       Air National   18       936,854,587                  245,413        937,100,000
        Guard
       Marine Corps   12       679,472,377              13,777,623         693,250,000
       Coast Guard     6       353,369,586               4,230,414         357,600,000
        Total         50    $2,588,695,263             $22,654,737      $2,611,350,000


Office of the Secretary of Defense Oversight
     In addition to the deficiencies in Air Force management of the C-130J aircraft,
     higher-level DoD officials were informed and involved in the decision process
     and should have acted to assist in correcting cost, schedule, and performance
     problems in the program. Since September 1995, when the Air Force became the
     milestone decision authority, the Office of the Under Secretary of Defense for
     Acquisition, Technology, and Logistics has provided limited oversight of the
     C-130J Program. However, officials in the Office of the Under Secretary of
     Defense were fully aware of the acquisition strategy, the changes to the
     operational requirements document, and the deficiency reports on the C-130J
     Program, but they did not act to assist the Air Force in correcting known problems
     or improve the management of the troubled program. Further, the Office of the
     Secretary of Defense supported the multiyear contract by submitting a report to
     Congress for approval of the multiyear contract, even though the C-130J design
     was not stable and the C-130 aircraft did not meet the contract model
     specification or operational requirements.


C-130J Operations and Maintenance
     The Government has fielded C-130J aircraft that cannot perform its intended
     mission, and the users have incurred additional operations and maintenance costs
     to operate and maintain older C-130 aircraft as well as the C-130J aircraft.


                                          8
Testing. Testers identified deficiencies that degrade system operations and
prevent successful mission accomplishment. The Air Force Operational Test and
Evaluation Center (AFOTEC) conducted a Qualification Operational Test and
Evaluation (QOT&E) to evaluate and report on the operational effectiveness and
suitability of the aircraft and to identify deficiencies that could affect the ability of
the C-130J aircraft to accomplish its missions. AFOTEC used an operational test
plan to lay out the testing approach for the C-130J Program. The plan identified a
two-phase QOT&E approach. Phase 1 testing evaluated the C-130J air land
mission in September 2000 and Phase 2 testing will evaluate the C-130J air drop
mission. Phase 2 testing is scheduled for November 2005.

        Phase 1 Testing. AFOTEC completed Phase 1 testing in September
2000, which showed that the C-130J aircraft was not effective or suitable for the
air land mission. AFOTEC Report, “C-130J Hercules II Qualification
Operational Test and Evaluation Phase 1 Report,” January 8, 2001, stated that the
block 5.2 upgrade for the C-130J was not effective. Performance deficiencies
included inadequate range and payload, immature software, lack of an automated
mission planning system, and difficulties in cold weather operations. The report
also stated that the C-130J aircraft was not suitable in its current configuration
because its integrated diagnostic capability was poor, including high built-in-test
false alarm rates and deficient technical orders. The Air Force stopped the
suitability evaluation on August 30, 2000, due to the extent of the deficiencies
identified. The report stated that many of the deficiencies noted in Phase 1 testing
were programmed to be corrected in the block 5.3 upgrade.

        Operational Assessment. AFOTEC performed an operational assessment
on block upgrade 5.3 to assess the C-130J Program’s progress towards readiness
for Phase 2 QOT&E testing. The “C-130J Hercules II Operational Assessment
(1) Final Report,” November 2001, stated that the C-130J aircraft’s progress in
the effectiveness area was rated “unsatisfactory.” AFOTEC identified that
deficiencies remained in the defensive systems, global air traffic management
compliance, the mission planning systems, interoperability with the existing
C-130 fleet, training, publications, and the ground maintenance system. The
report stated that the C-130J Program was also progressing unsatisfactorily in the
suitability area. The report mentioned that the large number of open deficiency
reports did not allow a definitive assessment of the operational impacts on C-130J
performance.

       Development schedule slips, system immaturity, and training issues
caused AFOTEC to reschedule Phase 2 operational testing from July 2000 to
November 2005. The deficiencies that AFOTEC found in block upgrade 5.3
necessitated the C-130J program office to make another block upgrade in
block 5.4. Phase 2 QOT&E was aligned with contractor implementation of the
block upgrade 5.4.

Operational Limitations. Deficiencies identified by the testers in the C-130J
Program affected the aircraft’s ability to perform its missions. Based on the
QOT&E test results, the Air Mobility Command determined the missions that the
C-130J could safely perform and released users to perform those aircraft missions.
Specifically, the Air Mobility Command released the C-130J to perform the
following missions: basic air land, assault, overwater operations, and medical


                                       9
evacuation. Operational limitations restrict the C-130J from performing night
vision goggle operations, combat search and rescue, visual formation, global air
traffic management, and air dropping paratroopers and containers. Because the
aircraft performed poorly during testing, the Air Mobility Command could not
release the C-130J to perform required heavy equipment air drop, coordinated
aircraft positioning system/station keeping equipment formation, and hostile
environment missions. The installation of block upgrade 5.4, which is scheduled
for 2005, is intended to allow the C-130J to air drop paratroopers and containers
and to perform night vision goggle operations, combat search and rescue, visual
formation, global air traffic management, coordinated aircraft positioning
system/station keeping equipment formation, and hostile environment operations.
Installation of block upgrade 6.0, which is scheduled for installation in 2007, will
allow the C-130J to perform heavy equipment air drop. Appendix B shows a
summary of the effects on each unit receiving the C-130J aircraft.

         C-130J. The basic aircraft is the C-130J. The primary mission of the
C-130J aircraft to air land and air drop personnel and equipment remains
unchanged from older versions of the C-130 aircraft. Testing has shown that the
C-130J aircraft is not operationally effective or suitable. The 815th Air Squadron
and the 135th Airlift Squadron have been nonoperational for more than 4 years
since they replaced the C-130E with the C-130J aircraft. In addition, three Air
National Guard components and one Air Force Reserve component have a
combination of C-130H or E and C-130J aircraft. Those components must use the
older C-130 aircraft to perform their assigned missions and use the C-130J mainly
for training. Because of major differences between the earlier C-130 and the
C-130J versions, pilots cannot be qualified on both aircraft, which causes an
additional financial and personnel burden on units that must operate both aircraft
simultaneously.

        WC-130J. The WC-130 aircraft performs reconnaissance missions to
provide information on hurricanes, tropical storms, and winter storms; however,
the WC-130J aircraft cannot perform the hurricane reconnaissance mission
because the radar has inadequate storm penetration. AFOTEC reported that all
the weather reconnaissance missions were affected by sustainability of the
propeller, which was damaged during all test missions. As a result, the Air Force
Reserve component must operate its old WC-130 aircraft to perform the mission.
Based on the Air Force schedule to fix the radar, the component will not be able
to perform the hurricane hunter mission with the WC-130J aircraft until at least
2005. The propeller requires further testing before it can be determined whether
the propeller can perform adequately for the weather mission. Propeller testing is
scheduled during the 2004 hurricane season.

         KC-130J. The KC-130J performs air land, air delivery, and air-refueling
missions for the Marine Corps. The Navy Commander Operational Test and
Evaluation Force conducted an operational evaluation of the KC-130J aircraft.
The KC-130J Aircraft System Operational Evaluation OT-IIIA/B was performed
from October 4, 2003, through January 9, 2004. The purpose of the test was to
determine the operational effectiveness and operational suitability of the KC-130J
for air land and air delivery missions (Block A), aerial refueling (Block B), and its
readiness for fleet introduction. The report, “KC-130J Aircraft System
Operational Evaluation OT-IIIA/B Report” April 21, 2004, stated the KC-130J


                                     10
met or exceeded all effectiveness and suitability critical operational issue
threshold values with the exception of availability, logistic supportability, and
training. The evaluation did not include aircraft survivability equipment;
therefore, the aircraft should only be employed in a permissive threat environment
until aircraft survivability equipment testing is completed. The report stated that
the KC-130J is operationally effective and suitable in a permissive threat
environment and recommended full fleet introduction of the KC-130J for
operational use in a permissive threat environment. DoD defines a permissive
threat environment as an operational environment in which the host country’s
military and law enforcement agencies have control as well as the intent and
capability to assist operations that a unit intends to conduct.

         EC-130J, HC-130J. The EC-130J is to perform electronic warfare
missions, and the HC-130J to perform search and rescue missions. The effects of
C-130J performance deficiencies on the EC-130J electronic warfare missions and
the HC-130J search and rescue missions have not yet been determined through
testing.

Maintenance. Unit level maintenance officials stated that C-130J aircraft
performance deficiencies caused an inability to support operations and schedule
flights. Released missions for the C-130J were limited to training and basic air
land, assault, overwater operations, and medical evacuation. An aircraft is fully
mission capable if it can perform all of its assigned missions. An aircraft is
partially mission capable if it can perform at least one but not all of its assigned
missions. The aircraft is not mission capable if it cannot perform any of its
assigned mission. Because it did not pass operational tests, the C-130J is not
capable of performing many of its planned missions.

The mission capability rate for the C-130J indicates that the aircraft is able to
perform only those missions it has been released to perform and not all the
missions that it is assigned to perform. The mission capability rates for the
C-130J are lower than the rates for the older C-130 versions, even though it has
not been released to perform all the C-130 missions. For the released missions,
the C-130J aircraft was available for use at a rating of 50.4 percent in 2002 and
62.4 percent in 2003.

The C-130J has a high rate of built-in-test false detections that have resulted in
decreased availability and increased maintenance time and costs. The built-in-test
false detection rate means that unnecessary maintenance is performed and
functional line replaceable units are removed, which, in turn, increases the
number of spare parts and maintenance hours needed to maintain the aircraft.

In addition, the immaturity of the C-130J aircraft design means that unit
maintenance personnel must spend available time correcting deficiencies for
block upgrade modifications, testing, and system reliability, which increases
aircraft downtime and creates a strain on personnel. The high number of
workarounds has caused user personnel frustration and additional maintenance
hours and costs.




                                      11
Conclusion
    The Government purchased the C-130J as a commercial item needing minor
    modifications to meet operational requirements, but Lockheed Martin has been
    unable to design, develop, and manufacture an aircraft that meets commercial
    model specifications. Since first contracted for in 1995, the C-130J aircraft has
    not met the operational requirements of the users and the design has not
    stabilized. Testers and users have identified many aircraft deficiencies that affect
    the satisfaction of the commercial model specifications and the operational
    requirements. Further, the conditional acceptance of and near full payment for
    noncompliant C-130J aircraft unnecessarily increased the Government cost risk
    on the C-130J Program and reduced the incentive for Lockheed Martin to correct
    deficiencies. In addition, because the aircraft was designated as a commercial
    aircraft and acquired under Federal Acquisition Regulation Part 12, the Air Force
    did not have contractor certified information on contract prices, costs, or profits
    and therefore was limited in its ability to protect the Government against possible
    overpricing.


Management Comments on the Finding and Audit Response
    The Assistant Secretary of the Air Force for Acquisition nonconcurred with the
    finding. The Assistant Secretary stated that the Air Force followed regulatory
    mandates and processes to determine and validate the commercial acquisition
    strategy. In addition, the Assistant Secretary stated that the commercial derivative
    of the C-130J aircraft is available in the commercial marketplace. The Assistant
    Secretary stated that the C-130J program is properly managed. The conditional
    acceptance of C-130J aircraft is consistent with the terms and conditions of the
    contract, and withholds are based on an analysis of the price of deficient items.
    The Assistant Secretary also stated that the Office of the Secretary of Defense
    provided effective oversight of the C-130J Program.

    We do not agree with the Assistant Secretary of the Air Force for Acquisition’s
    comments. The Air Force bought the C-130J as a commercial item needing minor
    modification. The contracting officer did not support the basis for his decision.
    That Lockheed Martin has been unable to design, develop, or deliver the
    contracted for C-130J aircraft for 8 years casts serious doubt on the commercial
    nature of the purchase. Also, the conditional acceptance of and payment for
    noncompliant C-130J aircraft unnecessarily increased the Government’s cost risk
    on the C-130J Program and reduced the incentive for Lockheed Martin to correct
    deficiencies. Although DoD officials were fully aware that the C-130J design
    was not stable and that the C-130 aircraft did not meet the contract model
    specification or operational requirements, they did not assist the Air Force in an
    oversight capacity to correct known problems or to improve the management of
    the troubled program.

    Although not required, the Director, Operational Test and Evaluation of the
    Office of the Secretary of Defense commented that the Air Force did not apply the



                                         12
    normal milestone decision process to this program and the only Government
    acquisition decision was to buy or not buy the C-130J aircraft based on force
    structure requirements and system affordability.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    draft Recommendation 2. to require a change to future multiyear contract
    modifications.

    We recommend that the Assistant Secretary of the Air Force for Acquisition:

    1. Refrain from contracting for additional block upgrades until Lockheed
    Martin can design, develop, and deliver a contract compliant aircraft.

    Air Force Comments. The Assistant Secretary of the Air Force for Acquisition
    did not concur with the recommendation. The Assistant Secretary stated that
    Lockheed Martin is already delivering C-130J aircraft that are compliant with the
    contract specification. The Assistant Secretary stated that the baseline C-130J
    aircraft is the same as the commercial derivative and only the military unique
    modifications are developmental. As provided in the contract, the Government
    evaluates the condition of the aircraft before each aircraft delivery and may accept
    an aircraft with minor deficiencies. The Assistant Secretary stated that additional
    block upgrades are required to meet DoD-mandated requirements and a delay
    would be detrimental to the Air Mobility Command mission. In addition, he
    stated that the Air Force is revising its operational requirements document to
    reflect a spiral approach.

    Audit Response. The Assistant Secretary of the Air Force for Acquisition’s
    management comments were nonresponsive. We disagree with the Assistant
    Secretary’s comments. Not one C-130J delivered aircraft was fully compliant
    with the contract specification. In addition, the Air Force did not ensure that the
    purchased C-130J aircraft met the operational requirements of the user. The
    revision of the operational requirements document to a spiral approach is a
    reduction of initial capabilities that the user required. All contract deficiencies
    should be resolved and retrofits should be performed before the Air Force funds
    additional upgrades.

    We request the Assistant Secretary of the Air Force for Acquisition to reconsider
    his position and provide additional comments on the final report.

    2. Use Federal Acquisition Regulation Part 15 for future modifications that
    add to the scope of the statement of work to the C-130J multiyear contract
    (F33657-03-C-2014). Proposals for modification should provide the
    Government with the contractor’s pricing, cost, and profit data.



                                         13
Air Force Comments. The Assistant Secretary of the Air Force for Acquisition
did not concur with the original recommendation to change the multiyear contract
to a Federal Acquisition Regulation Part 15 acquisition. The Assistant Secretary
stated that the use of Federal Acquisition Regulation Part 12 was appropriate,
based on the commercial nature of the C-130J aircraft. He stated that future
upgrades to the C-130J aircraft will be contracted for under Federal Acquisition
Regulation Part 15 because they are Government-financed enhancements to the
C-130J aircraft.

Audit Response. We reconsidered the practicality of recommending that the
multiyear contract be changed to a Federal Acquisition Regulation Part 15.
Because the Air Force had already accepted noncompliant aircraft, visibility on
modification and development costs are lacking, the multiyear contract has
already been awarded, and it would require a bilateral agreement to change the
terms and conditions of the contract, we revised Recommendation 2. to address
future modifications that add to the scope of the statement of work to the C-130J
multiyear contract (F33657-03-C-2014). We maintain our position that the
contracting officer did not adequately support the determination that the C-130J
aircraft was a commercial item as defined in Federal Acquisition Regulation
Part 12. That Lockheed Martin has been unable to design, develop, or deliver the
contracted for C-130J aircraft also casts serious doubt on that determination. By
acquiring the C-130J using Federal Acquisition Regulation Part 12, the Air Force
contracting official could not require Lockheed Martin to provide certified cost
and pricing data. Accordingly, without knowing Lockheed Martin prices, costs,
or profits, the Air Force contracting officer was limited in his ability to protect the
Government from possible overpricing.

In response to the final report, we request the Assistant Secretary of the Air Force
for Acquisition provide comments on the revised recommendation, which will
require the use of Federal Acquisition Regulation Part 15 on all modifications to
the C-130J multiyear contract (F33657-03-C-2014).

3. Increase amounts withheld to motivate Lockheed Martin to deliver an
aircraft that meets contractual requirements.
Air Force Comments. The Assistant Secretary of the Air Force for Acquisition
did not concur with the recommendation. The Assistant Secretary stated that
withholds are consistent with the terms of the contract and are based on a
Government analysis of the price of the noncompliant items In addition, he
stated that the Air Force has not had an issue with motivating Lockheed Martin to
correct within-scope deficiencies.

Audit Response. The Assistant Secretary of the Air Force for Acquisition’s
management comments were nonresponsive. We disagree with the Assistant
Secretary of the Air Force for Acquisition’s comments. Lockheed Martin has not
built or delivered a C-130J aircraft that met contractual requirements. All
50 C-130J aircraft delivered between 1999 and 2003 still require retrofit work to
conform to contract requirements. As of December 31, 2003, 18 of the 50
delivered C-130J aircraft (36 percent) were paid in full and had no withholds
despite the aircraft still having outstanding contract requirement deficiencies. As
of April 30, 2004, 86 percent of the within-scope deficiencies were more than


                                      14
2 years old. Accordingly, the amount of the withholds did not ensure that
Lockheed Martin performed corrections in a timely manner.

We request the Assistant Secretary of the Air Force for Acquisition reconsider his
position and provide additional comments on the final report.

4. Negotiate a firm schedule for completion of known outstanding retrofits of
fielded aircraft within 6 months.

Air Force Comments. Although the Assistant Secretary of the Air Force for
Acquisition did not concur with the recommendation, his comments were
responsive. The Assistant Secretary stated that all outstanding retrofits have been
scheduled or completed.

Audit Response. Although the Air Force nonconcurred with the
recommendation, the stated Air Force actual or planned action meets the intent of
the recommendation. However, we request additional management comments on
the final report that identify when all C-130J aircraft retrofits are scheduled for
completion.




                                    15
Appendix A. Scope and Methodology
    We performed audit work to examine an allegation made to the Defense Hotline
    that the C-130J aircraft did not meet contract specifications and therefore cannot
    perform its operational mission.

    We reviewed documents dated from September 1995 through December 2003.
    We reviewed policies for commercial acquisitions, operational testing, and
    weapon system operations and maintenance. We discussed the allegations with
    the complainants. We reviewed the C-130J Program documents, operational
    requirement documents, operational test reports, and contract files. We
    interviewed officials in the DoD, the Air Force, the Navy, the Marine Corps, the
    Defense Contract Management Agency, and the Federal Aviation Administration.

    We performed this audit from February 2003 through March 2004 in accordance
    with generally accepted government auditing standards.

    Limitations. We did not review the management control program because the
    audit focused on whether the allegation that the C-130J aircraft does not meet
    contract specifications and therefore cannot perform its operational mission has
    merit.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD weapons acquisition process high-risk areas.


Related Coverage
    During the last 5 years, the Inspector General of the Department of Defense (IG
    DoD) issued three audit reports and one investigative report discussing
    commercial aircraft acquisition strategy and related allegations on the C130H
    aircraft and the C-5 aircraft spare parts. Unrestricted Inspector General of the
    Department of Defense audit reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.

IG DoD
    IG DoD Report No. D-2004-064, “Acquisition of the Boeing KC-767A Tanker
    Aircraft,” March 29, 2004. This report determined that the Air Force plans to use
    a similar sole-source commercial item acquisition strategy for the tanker with a
    fixed-price contract. The Boeing KC-767A Tanker Program does not meet the
    statutory definition of a commercial item. No commercial market for this aircraft
    exists to establish reasonable prices by the forces of supply and demand.


                                        16
Consequently, the commercial item procurement strategy did not provide the
Air Force with sufficient cost or pricing data to make multi-billion dollar
decisions for the Boeing KC-767A Tanker Program and did not demonstrate to an
independent reviewer the level of accountability needed to conclude that the
prices negotiated represented a fair expenditure of DoD funds.

IG DoD Report No. D-2004-054, “Allegations of the Defense Contract
Management Agency’s Performance in Administering Selected Weapon Systems’
Contracts,” February 23, 2004. The report included an allegation that the
Government paid an excessive price for a C-5 aircraft bracket. This allegation
was not substantiated because a final price for this part had not been negotiated.
However, a related Defense Criminal Investigative Service report (report cited
below) found that cost or pricing data in the proposal that included this part was
based on false information.

IG DoD Report No. D-2003-115, “Allegations Concerning the Administration of
Contracts for Electronic Flight Instruments on the C-130H Aircraft,”
June 30, 2003

Defense Criminal Investigative Service, Criminal Vulnerability Report
No. 2002-01, November 28, 2001. The report discussed the lack of appropriate
controls and contract requirements in the procurement of spare parts for the C-5
aircraft, which were based on cost and pricing data that were known to be false
and purposely overstated. The report recommended that the Defense Supply
Center, Richmond, Virginia, and the Defense Contract Management Agency,
Marietta, Georgia, review procedures and controls and implement appropriate
action to ensure that future contracts are negotiated based on current, accurate,
and complete cost and pricing data.




                                    17
Appendix B. Mission Capability Limitations in
            the Air Force Reserve, Air National
            Guard, Marine Corps, and Coast
            Guard
    The C-130J aircraft were fielded to operational units in the Air Force Reserve, Air
    National Guard, Marine Corps, and Coast Guard. A summary of each unit is
    below.


Air Force Reserve
    815th Air Squadron. The 815thAir Squadron located at Keesler Air Force Base in
    Biloxi, Mississippi, performs the intratheater portion of the airlift mission and is a
    platform for dropping troops and equipment into hostile areas. The 815th Air
    Squadron has received four C-130J aircraft and expected to receive an additional
    four by 2005. The 815th Air Squadron has been converting from the C-130E
    aircraft to the C-130J aircraft since 1999. Because the C-130J aircraft has not
    been released to air drop troops and equipment, the unit is unable to perform their
    mission. The unit is not operational and does not report readiness.

    53rd Weather Reconnaissance Squadron. The 53rd Weather Reconnaissance
    Squadron located at Keesler Air Force Base in Biloxi, Mississippi, performs
    hurricane, tropical storm, and winter storm reconnaissance. The 53rd Weather
    Reconnaissance Squadron has received eight WC-130J aircraft; however, they
    cannot perform the hurricane mission. The 53rd Weather Reconnaissance
    Squadron must maintain both H and J aircraft fleets.


Air National Guard
    135th Airlift Squadron. The Maryland Air National Guard 135th Airlift
    Squadron performs the intratheater portion of the airlift mission and is a platform
    for dropping troops and equipment into hostile areas. The 135th Squadron has
    been converting its weapon system since receiving the first C-130J aircraft in July
    1999. The 135th Squadron has released its C-130E aircraft and now possesses
    eight C-130J aircraft. The unit is not operational and does not report readiness.

    143rd Airlift Squadron. The Rhode Island Air National Guard 143rd Airlift
    Squadron performs the intratheater portion of the airlift mission and is a platform
    for dropping troops and equipment into hostile areas. The 143rd Squadron has the
    stretch version of the C-130J in which the cargo floor length of the aircraft is
    increased from 40 feet to 55 feet. The Squadron considers itself in a transition
    status rather than a conversion status because it has three C-130J aircraft and five
    C-130E aircraft. The C-130E aircraft are used to perform the mission.


                                         18
    146th Airlift Squadron. The California Air National Guard 146th Airlift
    Squadron performs the intratheater portion of the airlift mission and is a platform
    for dropping troops and equipment into hostile areas. The Squadron is
    transitioning from the C-130E to the C-130J aircraft. The Squadron has two
    C-130J aircraft but performs its mission with the Squadron’s C-130E aircraft.

    193rd Special Operations Wing. The 193rd Special Operations Wing at
    Pennsylvania Air National Guard provides unified and theater commanders with
    airborne information operations capabilities specializing in psychological
    operations broadcast capabilities to support worldwide combat operations,
    contingencies, and special operations missions. The unit has received two
    EC-130J Super J aircraft. In addition, three C-130J aircraft are being converted to
    EC-130Js Commando Solo aircraft at the Lockheed Martin-Palmdale facility. No
    EC-130J aircraft-specific testing has been performed to determine the deficiencies
    to the mission. The 193rd Special Operations Wing must use its EC-130E aircraft
    to perform its mission.


Marine Corps
    The Marine Aerial Refueler and Transport Squadron 252 provides aerial refueling
    service in support of Fleet Marine Force air operations assault air transport of
    personnel, equipment, and supplies. The Squadron is converting to the KC-130J.
    The Squadron uses the KC-130J aircraft for training and its older aircraft to
    perform the mission. The KC-130J has been cleared for operational use in a
    permissive threat environment.


Coast Guard
    No information was requested from the Coast Guard during the audit.




                                         19
Appendix C. Audit Response to Comments on the
 Report
   Our detailed response to comments from the Assistant Secretary of the Air Force
   for Acquisition on statements in the draft report follow. The complete text of
   these comments is in the Management Comments section of this report.

   Commercial Item Acquisition Strategy. The Assistant Secretary of the Air
   Force for Acquisition nonconcurred with the finding. The Assistant Secretary
   stated that the Air Force followed regulatory mandates and processes to determine
   and validate the commercial acquisition strategy. The Assistant Secretary stated
   that the DoD IG ignored the fact that Lockheed Martin developed the C-130J at
   its own risk for the commercial and military marketplace. Also Lockheed Martin
   sold previous C-130 models commercially and currently offers the commercial
   derivative of the C-130J for commercial sales. The commercial derivative is
   substantially the same aircraft but also includes features not available in the
   commercial marketplace. The Lockheed Martin C-130J Five-Year Option
   Contract dated December 1995 identified the cost of the Air Force-unique
   configuration of the C-130J as 6 percent of the total aircraft price. The Assistant
   Secretary also stated that the DoD IG is opposed to applying the acquisition of
   commercial items to major system procurements and misapplied the statutory and
   Federal Acquisition Regulation criteria applicable to commercial items for the
   C-130J aircraft.

   Audit Response. We do not agree with the Assistant Secretary of the Air Force
   for Acquisition’s comments. The Air Force used a commercial item acquisition
   strategy that was unjustified. The Air Force bought the C-130J as a commercial
   item needing minor modification. The contracting officer did not support the
   basis for his decision. Even if the commercial derivative is substantially the same
   aircraft as the C-130J, the fact that Lockheed Martin has been unable to design,
   develop, or deliver the contracted C-130J aircraft for 8 years casts serious doubt
   on the commercial nature of the purchase. The increase in costs to acquire the
   C-130J aircraft shows that the Government, not Lockheed Martin, bears the risk
   for the development of the C-130J aircraft. Even though Lockheed Martin has
   sold previous C-130 models commercially and currently offers the commercial
   derivative of the C-130J for commercial sales, there have been no sales of the
   C-130J commercial derivative aircraft (the L-100J). In addition, we are not
   opposed to applying the acquisition of commercial items to major system
   procurements when the item is justified as commercial.

   Air Force Program Management. The Assistant Secretary stated that the
   C-130J Program is properly managed. The conditional acceptance of the C-130J
   aircraft is consistent with the terms and conditions of the contract, and withholds
   are based on an analysis of the price of deficient items. The Assistant Secretary
   stated that the C-130J Program cost performance is tracking to the program
   budget and the contractor is meeting the delivery schedule. In addition, the
   Assistant Secretary stated that the program is within established acquisition
   guidelines and there have been no breaches to the approved acquisition program



                                        20
baseline. The Assistant Secretary stated that insufficient Government personnel
resources hampered evaluations of contract deficiencies.

Audit Response. The Air Force did not adequately manage the program
operation and financing. The conditional acceptance of and payment for
noncompliant C-130J aircraft unnecessarily increased the Government cost risk
on the C-130J Program and reduced the incentive for Lockheed Martin to correct
deficiencies. We did not determine whether the C-130J Program cost
performance, delivery schedule, acquisition guidelines, or the approved
acquisition program baseline were met. Our objective was to determine whether
the C-130J aircraft met contract specifications and whether it could perform its
operational mission. We determined that the Air Force conditionally accepted
50 C-130J aircraft at a cost of $2.6 billion, even though none of the aircraft met
commercial contract specifications or operational requirements.

Office of the Secretary of Defense Program Oversight. The Assistant
Secretary also stated that the Office of the Secretary of Defense provided effective
oversight of the C-130J Program. The Assistant Secretary stated that the Air
Force provides quarterly Defense Acquisition Executive Summaries and annual
Selected Acquisition Reports for the Office of the Secretary of Defense and
congressional review. The Air Force and the Office of the Secretary of Defense
have also established periodic Integrating Integrated Product Team meetings to
review the status of the C-130J Program. The Assistant Secretary stated that the
Office of the Secretary of Defense began expressing concern with the C-130J
testing, program management, and performance in February 1999. The Assistant
Secretary stated that combined efforts of the Air Force and the Office of the
Secretary of Defense have resulted in more stabilized funding and close scrutiny
of deficiency reports to resolve problems and meet requirements.

Audit Response. The Office of the Secretary of Defense did not provide
effective oversight of the C-130J Program to correct significant program
deficiencies. Although DoD officials were fully aware that the C-130J design
was not stable and that the C-130 aircraft did not meet the contract model
specification or operational requirements, they did not assist the Air Force in an
oversight capacity to correct known problems or to improve the management of
the troubled program. The Air Force signed a multiyear contract to purchase
more C-130J aircraft that did not meet the commercial contract specification or
operational requirements and that cannot perform their intended mission.




                                     21
Appendix D. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Operational Test and Evaluation
Director, Programs Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force for Acquisition
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Director, Air National Guard
Chief of Air Force Reserve
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        23
Department of the Air Force Comments




                     25
26
27
28
29
30
31
32
33
Director, Operational Test and Evaluation




                      34
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Acquisition Management prepared this report. Personnel of the Office
of the Inspector General of the Department of Defense who contributed to the
report are listed below.

Bruce A. Burton
Rudolf Noordhuizen
Lisa Novis
Jennifer L. Jezewski
Paul R. Glenn
Jacqueline N. Pugh
